CERTIFICATE OF COMPLIANCE
I certify that the Petitioners’ Petition for Writ of Certiorari complies with the type-volume
limitation set forth in Rule 33.1(h) of the Rules of the Supreme Court. The Petitioners’ Petition
for Writ of Certiorari uses a proportional typeface and 12-point font, and it contains 3,316 words.

/s/ Steven R. Schooley
Steven R. Schooley, Esq.
The Schooley Law Firm
108 Hillcrest Street
Orlando, FL 32801
Telephone:
(407) 377-6300
Facsimile:
(407) 377-6036
Attorney for Petitioners, Robert Kinghorn and the Law
Office of Frederick Huff, Interveners

